Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Cass County, Michigan Sheriff's Department
GR-50-01-004
June 21, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Cass County, Michigan, Sheriff's Department.  The purpose of the grants is to enhance community policing.  The Cass County Sheriff's Department was awarded a total of $600,000 to hire 8 full-time officers for community policing.

The Cass County Sheriff's Department generally complied with the six grant conditions tested.   However we noted that the Sheriff's Financial Status Reports overstated costs because they included: 1) costs that were either unallowable or that had not been approved in advance on the Financial Clearance Memorandums; and 2) salary and benefits of the senior officer working the COPS program rather than that of an entry level officer as required by the grant.  We did not question any of these costs, however, because the department ultimately incurred sufficient entry-level allowable expenses during the grant period to warrant reimbursement of the full grant amount. 1
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.





Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.